 

84111

 

PROVO OFFICE

86 North Uni
Suite 430
Provo, Ut

 

 

 

RAY QUINNEY NEBEKER

November 10, 2020

Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, NE

Washington DC, 20543-0001

sharris@supremecourt.gov

Re: — Hua Cai v. Huntsman Corporation, Supreme Court Docket No. 20-621
Motion to Extend Time to Respond to Petition for Writ of Certiorari

Dear Mr. Harris:

Pursuant to Supreme Court Rule 30.4, Respondent Huntsman
Corporation (“Respondent” or “Huntsman”) respectfully moves for an 8-day
extension of time for filing its response to Appellant Hua Cai’s Petition for Writ
of Certiorari in Hua Cai v. Huntsman, Supreme Court Docket No. 20-621 until
December 17, 2020.

Mr. Cai filed his Petition for Certiorari on October 27, 2020. The
petition was not docketed with the U.S. Supreme Court until November 9, 2020.
The original deadline for Huntsman to file its Opposition to the Petition is
December 9, 2020.

Review of Mr. Cai’s Petition for Writ of Certiorari reveals several
arguments that were not raised or briefed to either the District Court for the
District of Utah or the Tenth Circuit Court of Appeals, including arguments that
that the lower courts did not have authority to rule on these questions at all. See
Petition for Writ of Certiorari at 8-13. Additionally, counsel for Huntsman is in
the process of applying for admission to the U.S. Supreme Court so that it can
make a formal appearance prior to filing its Response to Mr. Cai’s Petition for
Writ of Certiorari.

 

In order to adequately respond, Huntsman must not only address the
issues raised and argued below, but these additional issues as well. To most
effectively do so, Huntsman requests an additional 8 days to file its response, as
permitted by Supreme Court Rule 30.4. Under the proposed extension.of time, |

 

PROFESSIONAL CORPORATION

 
Huntsman Corporation’s Response to Cai’s Petition for Writ of Certiorari would
be due December 17, 2020. Petitioner Woody Cai also took additional time
beyond the statutory 90-day deadline for filing a Petition for Certiorari as
permitted by Order No. 589 issued on March 19, 2020, which allows petitioners
“150 days from the date of the lower court judgment.” The fact that Petitioner
Cai availed himself of this additional time confirms that no prejudice will result
from Respondent Huntsman Corporation’s requested 8-day extension.

For the foregoing reasons, the Respondent Huntsman Corporation
respectfully requests an extension of the deadline for filing its response to Mr.
Cai’s Petition for Writ of Certiorari from December 9, 2020 to December 17,
2020.

Respectfully submitted,

Bul Ran dthan

Justin T. Toth and
Beth J. Ranschau

jtoth@rgn.com
branschau@rgn.com

ce: Petitioner Woody Cai (pro se)
mustangincpk@yahoo.com
